No.

IN THE
SUPREME COURT OF THE UNITED STATES

WILLIAM A. MASTERS—PETITIONER

VS.
XAVIER BECERRA, in
his official capacity as the
Attorney General of the

State of California____ —RESPONDENT(S)
PROOF OF SERVICE
I, William A. Masters, do swear or declare that on this date,
August 6, 20021_________,
2021, as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEVAE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with First Class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Lara Haddad. Deputy Attorney General. Dept of Justice. Office of the Attorney General
300 S. Spring St. Suite # 1702
Los Angeles, CA 90013
I declare under penalty of peijury that the foregoing is true and correct.
Executed on

August 6

.2021

(Signature)---- ---------

RECEIVED
AUG 1 6 2021

William A. Masters

